               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Data Usage in Retail Operations

                       Audit Report




                                              March 8, 2013

Report Number DR-AR-13-002
                                                                         March 8, 2013

                                                    Data Usage in Retail Operations

                                                       Report Number DR-AR-13-002




BACKGROUND:
The U.S. Postal Service has retail          operations. These conditions occurred
systems and reports that contain critical   because Postal Service officials had not
data it uses to maximize resources,         developed and implemented a strategy
increase operational efficiency, and        to identify key retail data, systems, and
improve service. The Retail Data Mart is    reports for managers in customer
the primary system used to manage           service operations. Furthermore, some
customer service operations and is          managers did not receive training, or
accessed through the Enterprise Data        found training to be ineffective, and
Warehouse, which is a repository for        experienced difficulty in locating Retail
managing the Postal Service’s data          Data Mart reports. In addition, some
assets. This system provides access to      managers accessed and used other
retail transactions and other critical      retail systems and reports that they
business information.                       indicated were more user friendly and
                                            provided the same information.
Our objective was to assess the Postal
Service's use of data to manage             It is important that managers have
customer service operations.                pertinent data, systems, and reports to
                                            manage operations and make informed
WHAT THE OIG FOUND:                         and timely decisions.
We found retail operations have a
substantial amount of information to        WHAT THE OIG RECOMMENDED:
manage its operations, including            We recommended the vice president,
11 systems/models, 250 reports              Delivery and Post Office Operations,
generated from these systems, and           identify data, systems, and reports that
hundreds of data elements that reside in    meet the needs of managers in
these systems. We also found some           customer service operations and
managers did not know how to use            provide training to managers on
these tools and data to manage              accessing and using reports.
operations. For example, while the
Retail Data Mart was intended as the        Link to review the entire report
primary retail system, 94 percent of
authorized users did not access the
system from April through July 2012.
Further, 10 prior OIG and Government
Accountability Office reports describe
numerous data usage, availability, and
accuracy issues involving retail
March 8, 2013

MEMORANDUM FOR:             EDWARD F. PHELAN, JR.
                            VICE PRESIDENT, DELIVERY AND POST OFFICE
                            OPERATIONS




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Audit Report – Data Usage in Retail Operations
                            (Report Number DR-AR-13-002)

This report presents the results of our audit of Data Usage in Retail Operations (Project
Number 12WG008EN000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director, Delivery
and Post Office Operations, or me at 703-248-2100.

Attachments

cc: James J. Boldt
    Jeffrey C. Day
    Deborah Giannoni-Jackson
    Corporate Audit and Response Management
Data Usage in Retail Operations                                                                                    DR-AR-13-002




                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Data Availability and Usage ............................................................................................ 2

Prior Data Usage Reports ............................................................................................... 4

Recommendation ............................................................................................................ 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 6

Appendix B: Data Systems, Reports, and Management Models ..................................... 8

Appendix C: Sites Visited .............................................................................................. 12

Appendix D: Postal Service Office of Inspector General and General Accountability

Office Data Usage Prior Reports Fiscal Years 2007 - 2012 .......................................... 13

Appendix E: Management's Comments ........................................................................ 14
Data Usage in Retail Operations                                                                        DR-AR-13-002




Introduction

This report presents the results of our audit of Data Usage in Retail Operations (Project
Number 12WG008EN000). Our objective was to assess the U.S. Postal Service's use of
data to manage customer service operations. This self-initiated audit addresses
operational risks. See Appendix A for additional information about this audit.

One of the key strategies management identified in Postal Service Vision 20131 is to
begin using cost management, new technology, and workforce planning to improve
operational efficiency. Also, four of the Postal Service’s Delivering, Results, Innovation,
Value, and Efficiency (DRIVE)2 initiatives are relevant to customer service operations.3
The Retail Data Mart (RDM) is one of the business areas in the enterprise data
warehouse (EDW) and is the primary retail operations information system. RDM
contains comprehensive reports by business areas for Self-Service Kiosks (SSKs),4
consumer products, key performance indicators, marketing, retail customer experience,
sales, and reports on the window operation survey (WOS).

Conclusion

We found retail operations have a substantial amount of information to manage its
operations, including 11 systems/models, 250 reports generated from these systems,
and hundreds of data elements that reside in these systems. We also found some
managers did not know how to use these tools and data to manage operations. For
example, while RDM was intended as the primary retail system, 94 percent of
authorized users did not access the system from April through July 2012. Further, 10
prior reports contained data usage, availability, and accuracy issues involving retail
operations.

These conditions occurred because Postal Service officials have not developed and
implemented a strategy to identify key retail data, systems, and reports for managers in
customer service operations. Furthermore, some managers did not receive training, or
found training to be ineffective, and experienced difficulty in locating RDM reports. In
addition, some managers accessed and used other retail systems and reports that they
indicated were more user friendly.


1
  Vision 2013 is the Postal Service's 5-year strategic plan for 2009-2013, to create a new approach built around
customer needs.
2
  DRIVE is a data-driven management system designed to improve Postal Service business strategy. It is used to
manage 39 key initiatives in a way that provides streamlined reporting and accountability.
3
  The four DRIVE initiatives are: 1) Access Optimization - to provide customers with efficient and convenient access
to Postal Service products and services; 2) Increase Sales Force Effectiveness - increase net contribution per sales
representative, and total number of sales per sales representative; 3) Customer Experience - improve customer
experience to retain customer loyalty; and 4) Revenue Systems - produce systematic revenue reports that are
accurate and actionable.
4
  Previously called automated postal centers (APCs) and self-service shipping and mailing centers (SSSMCs).



                                                          1
           This report has not yet been reviewed for release under FOIA or the
           Privacy Act. Distribution should be limited to those within the Postal
           Service with a need to know.
Data Usage in Retail Operations                                                                   DR-AR-13-002



It is important that managers have pertinent data, systems, and reports to manage
operations and make informed and timely decisions.

Data Availability and Usage

We found retail operations have a substantial amount of information to manage its
operations, including 11 systems5/models,6 250 reports, and hundreds of data elements.
See Appendix B for additional information on the systems, management models, and
reports available to managers.

We also found some managers did not know how to use these tools and data to
manage operations. Specifically, our analysis showed only 6 percent of authorized RDM
users accessed the RDM from April through July 2012. See Table 1 for more
information.

                   Table 1. Authorized Access vs. Actual Access to RDM
                                     (April-July 2012)7

                                                                                               Percentage
                                                                                               of Users
                                      Number of                             Number of          Accessing
                                      Positions      Number of              Users              RDM vs.
                                      Authorized to Times RDM               Accessing          Number
    Position Type                     Access RDM     Accessed               RDM                Authorized
    Postmaster                                32,265     35,648                   1,790              5.55%
    Part-Time Postmaster                         889         14                       6              0.67%
    MPOO8                                        454        398                      44              9.69%
    Manager, Customer Service                  5,291        689                     503              9.51%
    Manager, Customer Service
                                                   270            5,855                 132        48.89%
    Operations
    Total                                       39,169           42,604                2,475        6.31%
Source: Data provided by manager, Enterprise Analytics, Postal Service Headquarters.

These conditions occurred because Postal Service officials have not developed and
implemented a strategy to identify key retail data, systems, and reports. Also, some
managers stated they found it difficult to locate reports in RDM and therefore used other
systems and reports that were easier to access.




5
  These include RDM, SSKs, Post Office Box Online (POBOL), Web-Box Activity Tracking System (WebBATS),
Integrated Retail Terminal (IRT), Service and Sales Associate (SSA) Revenue Target System and Point of Service-
Retail (POS). More information about these systems is available in Appendix B.
6
  These include Customer Service Variance (CSV), Customer Service Adjusted Workload (CSAW), Customer Service
Staffing Opportunity Model (CSSOM), and Staff Scheduling Tools (SST).
7
  Due to time constraints we selected data for a period of 4 months.
8
  A manager post office operations (MPOO) is responsible for managing a large number of post offices and
supervising the postmasters of these offices. MPOOs report directly to district managers.

                                                        2
Data Usage in Retail Operations                                                                   DR-AR-13-002



Furthermore, our survey of 1759 customer service managers indicated some managers
either did not receive training or the training was ineffective. Although four district
managers indicated they have staff that provide them RDM reports from EDW, at the
unit level, some managers still have challenges identifying and obtaining data and
reports to manage their customer service operations. See Appendix C for sites visited
and Figure 1 for the results of our web-based survey.

                                 Figure 1. Web-Based Survey Results




    Source: Customer service managers responding to our survey.




9
 We sent an electronic survey to 175 customer service managers. Not all managers responded to the survey, and
some respondents did not answer all the survey questions; 116 responded to receiving EDW training and
112 responded to training being effective.

                                                         3
Data Usage in Retail Operations                                               DR-AR-13-002



In addition, we interviewed 15 MPOOs by telephone and asked similar questions. They
also indicated they had difficulty locating RDM reports in EDW. See Figure 2 for results
of our telephone interviews.

                          Figure 2. Telephone Interviews With MPOOs




    Source: Telephone interviews with MPOOs.

It is important that managers have pertinent data, systems, and reports to manage
operations and make informed and timely decisions.

Prior Data Usage Reports

We identified 10 prior U.S. Postal Service Office of Inspector General (OIG) and U. S.
Government Accountability Office (GAO) reports that reported various data issues from
fiscal years (FY) 2008 through 2012. Specifically, we found:

    Six instances in which data were not being used/optimized to manage operations.
    Three instances in which data were inaccurate.
    Two instances in which data did not exist.

This occurred generally due to shortcomings in the data system used that include:
limited oversight, complexity of the data system, inadequate internal controls, and
insufficient information that impacts management's ability to effectively manage retail
operations.

These reports made recommendations addressing these shortcomings; therefore, we
are not making any further recommendations in this report. See Appendix D for
additional information related to prior data usage reports.




                                               4
Data Usage in Retail Operations                                               DR-AR-13-002



Recommendation

We recommend the vice president, Delivery and Post Office Operations, to:

1. Identify key systems, reports, and data that meet the needs of managers in
   customer service operations and provide training as needed to customer service
   operation managers on accessing and using reports.

Management’s Comments

Management indicated agreement with the recommendation. Management stated they
will collaborate with area officials to ensure compliance with this recommendation. They
also plan to provide training as needed to customer service managers on accessing and
using reports. Management provided a target implementation date of May 31, 2013.
See Appendix E for management’s comments, in their entirety.

Management also stated the data showing only six percent RDM access during the
timeframe of April – July was skewed due to the Postal Service issuing a notification of
Voluntary Early Retirement for Postmasters during the timeframe. They concluded this
had a significant impact on personnel and subsequent movement, thereby affecting
access.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective actions should resolve the issues identified in the report.

With regard to management’s comment about early retirement for postmasters affecting
access, we agree there may have been some impacts to access of the RDM. We found
approximately 3,800 postmasters or about 12 percent elected to leave at the end of July
2012. As a result, the percentage of users accessing RDM would have increased from
5.55 percent to 6.20 percent. We do not consider this a significant increase to the
number of postmasters accessing these reports.




                                            5
Data Usage in Retail Operations                                               DR-AR-13-002




                              Appendix A: Additional Information

Background

Efficiently staffing and managing retail operations is the core responsibility of managers
in Postal Service retail operations. Consequently, reports that contain key indicators and
retail models that assist in scheduling are vital resources. Generally, managers use
these tools to evaluate operations and establish targets for improved staff performance
and potential impact on customer service. The retail industry also uses tools to measure
performance and evaluate the impact of transactional volume fluctuations as well as the
type of transactions processed by retail associates.

The Postal Service generated about $18 billion in revenue in retail operations during
FY 2012 and has various systems and reports that contain data critical to managing
day-to-day customer service operations. RDM, a business area in EDW, is a major data
system that provides access to actionable retail transaction data and critical business
information used for operational planning, fraud detection, and strategy development, as
well as sales and market analysis. The RDM was established for managers in retail
operations to enable them to make better business decisions based on retail data. The
RDM interfaces with Point of Service terminals to capture and store information on key
performance indicators for retail transactions, customer experiences, productivity, and
SSKs to Point-of-Service productivity comparison. In addition, customer service
managers use various data systems and reports available to them from sources outside
of EDW.

Objective, Scope, and Methodology

Our objective was to assess the Postal Service's use of data to manage customer
service operations. To accomplish our objective, we:

   Reviewed applicable Postal Service policies and procedures and prior OIG and U.S.
    GAO reports related to data and reports usage.

   Reviewed Vision 2013, the Postal Service's 5-year strategic plan for 2009-2013.

   Reviewed the 39 DRIVE initiatives of the Postal Service and identified four
    initiatives related to customer service operations.

   Selected the two best performing and two least performing districts using an
    OIG-developed retail customer service Performance and Analysis Risk Indicator
    Scans (PARIS) model and selected two retail units from each of the four selected
    districts.




                                              6
Data Usage in Retail Operations                                             DR-AR-13-002




   Interviewed managers at Postal Service Headquarters, selected district offices and
    retail units, and managers of Post Office™ operations to assess data availability,
    usage, and training related to data systems and reports.

   Identified 250 critical reports and hundreds of data elements from RDM used to
    monitor and enhance the performance of retail units.

   Sent a web-based survey to 175 customer service managers (25 from each of the
    seven areas of operations) to verify data availability and usage.

   Analyzed data provided by the manager, Enterprise Analytics, at Postal Service
    Headquarters.

   Benchmarked the retail industry's use of performance measurement metrics with
    those the Postal Service uses.

We conducted this performance audit from May 2012 through March 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our finding and conclusions based on our audit objective. We relied on information
achieved through site interviews and survey results. We discussed our observations
and conclusions with management on February 5, 2013, and included their comments
where appropriate.




                                           7
Data Usage in Retail Operations                                                       DR-AR-13-002




             Appendix B: Data Systems, Reports, and Management Models

                            Table 2. Retail Operations Data Systems

            System                                         Description
                             Data storage system that houses retail customer transaction
1     RDM                    information from all Point-of-Sales offices.

                             Self-service vending equipment that offers basic postal products and
2     SSK                    services.
                             A quick, easy and convenient online service that lets customers find,
                             apply for and rent an available POBOL by going to usps.com/po boxes
3     POBOL                  instead of making a trip to a Post Office.
                             Web-based application that allows post offices to manage their Post
4     WebBATS                Office Box, caller, and reserve services.
5     IRT                    First generation sales transaction system used in select offices.
                             Provides a revenue target for each sales and service associate
6     SSA                    assigned to work at postal counter.
                             Primary hardware and software system used to conduct sales
7     POS                    transactions during the Post Office’s check-out process.
Source: Postal Service Blue Pages.




                                                  8
Data Usage in Retail Operations                                                 DR-AR-13-002




                                      Table 3. System Reports



            System                              Report              Number of Reports
RDM                               Carrier Pickup                           4
                                  Flash Reports                            6
                                  Key Performance Indicators               7
                                  Marketing                                2
                                  Post Office Box                          4
                                  RDM Window Operations                    12
                                  Survey (WOS)
                                  Retail Unit Operations                   14
                                  CARS (Contract Retail Access             3
                                  System)
                                  Internet Channel                         5
                                  Mailing and Postage                      6
                                  Merchant Returns                         3
                                  RDM Late Reports                         1
                                  Retail Customer Experience               8
                                  Sales Reports                            18
                                  Sure Money                               8
APC                               Flash Reports                            2
                                  Sales Reports                            2
                                  APC Gain                                 1
                                  APC Location Report Builder              1
POS                               Financial Reports                        26
                                  Transaction Reports                      20
                                  Postage Validation Imprint               4
                                  (PVI)
                                  Inventory                                16
                                  Clerk's End of Day                       6
                                  Survey                                   15
                                  Consolidated Close-out                   20
                                  Marketing                                4
                                  Security                                 2
                                  Help Desk                                1
                                  Management                               7
                                  Training                                 2
WebBATS                           Facilities in Publication (PUB)          1
                                  431 Not Yet Initiated
                                  Post Office Boxes                        1
                                  Reactivation Report
                                  Adjustment Report                        1
                                  Exception Report                         1
                                  Unit Finance Number                      1
                                  No Activity Report-500 Boxes             1
                                  Or Over
                                  No Activity Report Under 500             1
                                  Boxes
                                  Broken or Closed Boxes                   1

                                                9
Data Usage in Retail Operations                                                DR-AR-13-002



                             Table 3. System Reports (Continued)


            System                             Report              Number of Reports
                                  Data Review                             1
                                  Incomplete 1093 With                    1
                                  Recurring Payment
                                  WebBATS Incomplete 1093                 1
                                  Baker's Dozen                           1
                                  Lock Change/Handling                    1
                                  Monthly Summary                         1
                                  POS Recurring Payment                   1
SSA Revenue Target System         The system contains four                4
                                  reports: SSA Daily Goals,
                                  SSA Details, SSA Daily
                                  Revenue Goals Utilization
                                  Report, and Walk-In Revenue
                                  (WIR) Goals and Revenue
                                  Summary.
   Post Office Boxes Online       This system provides monthly            1
                                  reports on Post Office Boxes
                                  purchased online. These
                                  reports provide the following
                                  information: new volume
                                  online, new online revenue,
                                  online renewal volume,
                                  renewal revenue, total online
                                  volume, and total online
                                  revenue, online refunds and
                                  total online revenue minus
                                  total online refunds.
              Total                                                      250
Source: OIG Analysis.




                                               10
Data Usage in Retail Operations                                                 DR-AR-13-002




                                            Table 4. Models

              Name                                      Description
1           CSV              A management tool that provides earned workload for the
                             managers to right-size the complement to support the earned
                             workload.
2           CSAW             Using data from the Time and Attendance Collection System and
                             RDM, along with the manual input of daily volumes, allows this
                             tool to provide the data necessary for managers to balance
                             actual workhours with actual workload.
3           CSSOM            This model calculates actual to earned workhour variances and
                             trends for Function 4 current and projected workload.
4           SST              Uses information from existing staffing and reporting tools to
                             simplify the process of matching workhours with projected
                             workload.
    Source: Postal Service Blue Pages.




                                                11
Data Usage in Retail Operations                                                            DR-AR-13-002




                                    Appendix C: Sites Visited

                               Table 5. Districts and Sites Visited


                    District                Post Office                     Unit


              Western New York       Buffalo Post Office            Amherst Branch
              Western New York       Buffalo Post Office            Williamsville Branch
              Kentuckiana            Louisville Post Office         Middletown Branch
              Kentuckiana            Louisville Post Office         Downtown Station

              Colorado/Wyoming       Golden Post Office             Golden Post Office
              Colorado/Wyoming       Denver Post Office             Lakewood Branch
                                     Fort Lauderdale Post
              South Florida          Office                         Sunrise Branch
                                     Fort Lauderdale Post
              South Florida          Office                         Davie Branch
             Source: Customer Service Variance Program and PARIS.




                                                   12
     Data Usage in Retail Operations                                                             DR-AR-13-002




                Appendix D: Postal Service Office of Inspector General and General
              Accountability Office Data Usage10 Prior Reports Fiscal Years 2007 - 2012

                                                                        Data
                                                                         Did
                                                            Report       Not    Data Not Used   Data Not
Report Number                 Report Name                    Date       Exist    / Optimized    Accurate
                        Improvements in Data
                        Would Strengthen
                        Maintenance and
                        Alignment of Access to
GAO-08-41               Retail Services                    12/10/2007    X
                        Efficiency of Retail
                        Customer Service
MS-AR-10-004            Operations                         7/28/2010                 X
                        Mystery Shopper
HR-MA-11-002            Program                            4/28/2011                               X
                        Challenges Related to
                        Restructuring the
                        Postal Service’s Retail
GAO-12-433              Network                            4/17/2012     X
                        Survey of Postmasters’
                        Paperwork and
                        Reporting
DR-MA-12-001            Requirements                       5/25/2012                 X
                        Carrier Contributions to
                        Revenue Generation
MS-AR-12-005            and Customer Service               6/19/2012                 X
                        Service Performance
                        Measurement Data –
CRR-AR-12-005           Commercial Mail                    6/25/2012                               X
                        Efficiency of Customer
EN-AR-12-003            Service Operations                 8/17/2012                 X
                        Controls Over the
                        Check Acceptance
FI-MA-12-016            Process                             9/6/2012                 X
                        Commercial Mail Entry
                        and Acceptance
EN-AR-12-004            Initiatives                        9/14/2012                 X




     10
          Reports refer to retail operations data usage.

                                                                 13
Data Usage in Retail Operations                                DR-AR-13-002



                           Appendix E: Management's Comments




                                          14
